Capital Case – Execution October 5, 2021 at 6:00 p.m. Central
Nos. 21-5854, 21A-51

In The Supreme Court Of The United States
ERNEST JOHNSON,
Petitioner,
v.
PAUL BLAIR,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF MISSOURI
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
*LAURENCE E. KOMP
Capital Habeas Unit, Chief
JEREMY S. WEIS
Assistant Federal Public Defender
PAULA K. HARMS
Assistant Federal Public Defender
Federal Public Defender
Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106
laurence_komp@fd.org
(816) 471-8282
COUNSEL FOR PETITIONER
*Counsel of Record

INTRODUCTORY STATEMENT.
This is not a close case. Ernest Johnson is intellectually disabled. To permit
the State of Missouri to execute Mr. Johnson undermines this Court’s authority, and
precedent and would represent a fundamental miscarriage of justice.
Evidence supporting Mr. Johnson’s intellectual disability diagnosis is credible
and consistent throughout his 61 years of life. Mr. Johnson’s IQ has been tested
repeatedly over the last 5 decades (beginning at the age of 8), and his scores have
shown a remarkable consistency. He has a lifetime adjusted average full-scale IQ
score of 67.4, well within the range for intellectual disability, and indicating he
satisfies the first prong of the intellectual disability diagnosis. (App. E, p.30) (noting
that the consistency of scores indicates a case of convergent validity on IQ). Included
in this lifetime average is the full-scale score of the State’s own expert, 67–the exact
same score found by the Mr. Johnson’s trial expert. Mr. Johnson’s full-scale IQ scores
are supported by objective data from the developmental period.
Educators in Mr. Johnson’s segregated school identified Mr. Johnson from an
early age as someone requiring substantial educational supports and placed him in
special education classes beginning in the fourth grade. The local school system tested
Mr. Johnson’s IQ for the first time just a few months in triggered by his initial
standardized testing showing his deficiencies in every academic area. Mr. Johnson
was held back three times, in second and third grade and in his freshman year in
high school, for poor academic performance. Academic achievement testing placed
Mr. Johnson universally at the bottom in all areas. Every teacher reported his

1

intellectual shortcomings. He could not use a ruler to draw a straight line in the ninth
grade. A correction’s officer long-before this crime described Mr. Johnson as “very
childlike and unintelligent,” and that he had an IQ of 70. (App. O, p. 2). Ernest
Johnson is intellectually disabled.
Respondent attempts to dispute Mr. Johnson’s evidence but does so without a
single citation to the record or expert testimony. Indeed, this case is an outlier in the
intellectual disability realm because the state failed to call an expert to rebut Mr.
Johnson’s evidence. Every testifying expert that conducted an Atkins v. Virginia, 536
U.S. 304 (2002) examination testified Mr. Johnson meets the criteria for intellectual
disability and that it is not a close case.
The Missouri Supreme Court’s approach to Mr. Johnson’s Atkins claim marks
a radical departure from this Court’s jurisprudence. The court deviated from wellestablished clinical standards that this Court has recognized undergird Atkins. In
particular, the Missouri Supreme Court imposed additional criteria – above and
beyond those relied on by clinicians and this Court – to the definition of intellectual
disability. These included a requirement of an intellectual disability diagnosis prior
to the age of 18 and a requirement for Mr. Johnson to establish a causal relationship
between the intellectual disability and the deficits in adaptive functioning. These
additional criteria serve only to frustrate this Court’s Atkins inquiry and result in the
execution of the intellectually disabled in Missouri. As noted by Respondent, relief is
appropriate “where a state court dramatically departed from the three-part test by
imposing a state-specific approach.” Resp. at p. 13.

2

Respondent choose not to defend against Mr. Johnson’s arguments related to
the Missouri Supreme Court’s requirement of diagnosis in the developmental period.
Mr. Johnson agrees the Missouri Supreme Court’s on-set determination is
indefensible. While a GVR is appropriate, alternatively, this Court should enter a
stay and hold Mr. Johnson’s case for consideration in conjunction with a similar onset question pending before this Court in Coonce v. United States, Case No. 19-7862
(Question #1).
REPLY TO RESPONDENT’S ARGUMENTS
I.

RESPONDENT RELIES ON FALSE
AVOID THIS COURT’S REVIEW.

AND

MISLEADING ARGUMENTS

TO

Respondent argues this claim has been raised and rejected numerous times by
the state and federal courts. See Resp. at p. 6-7. That simply is not true. During the
direct appeal, Mr. Johnson’s direct appeal attorney raised the Atkins claim as a
sufficiency of the evidence claim and not as a constitutional challenge. The Missouri
Supreme Court, therefore, only considered whether the prosecution “introduced
sufficient evidence from which a reasonable juror could have found each element of
the crime beyond a reasonable doubt.” State v. Hunt, 451 S.W.3d 251, 257 (Mo. 2014).
The court did not consider, as it did in the instant case, whether the evidence
admitted and relied on by the factfinder is consistent with clinical and constitutional
requirements. Therefore, Respondent misleads.
Respondent erroneously alleges this Court should decline to accept jurisdiction
of this case on the basis that the Missouri Supreme Court’s decision represents an
independent and adequate state law ground for relief. Resp. at p. 11. Inconsistent
3

with this argument, Respondent admits that the Missouri Supreme Court’s
addressed the merits of the intellectual disability claim. It is not what the Missouri
Supreme Court could have done – but what it did – and having addressed the merits,
there can be no allegation of a default. Respondent’s argument has no merit here, was
made to the Missouri Supreme Court, and was rejected by the court when it conducted
a merits review.
At another point, Respondent harangues about Petitioner challenging
Missouri’s intellectual disability statute. Resp. at p. 11. Mr. Johnson made no such
argument. He simply has asserted that the Missouri Supreme Court’s judicial
activism in creating the “Johnson Factors” marked a departure from how Missouri
previously defined intellectual disability, and, more importantly for the matter before
this Court, a circumvention of this Court’s rulings in Atkins, Moore v. Texas, 137 S.Ct.
1039 (2017) (“Moore I”) and Moore v. Texas, 139 S.Ct. 666 (2019) (“Moore II”).
II.

THE MISSOURI SUPREME COURT IGNORED WELL-ESTABLISHED
CLINICAL APPROACHES IDENTIFIED AND APPLIED BY THIS COURT TO
EVALUATE AN ATKINS CLAIM.
This Court cited with approval clinical criteria in Atkins, 536 U.S. at 317. 1

While not dictating how to define intellectual disability, the Court has consistently
placed guardrails for those states that stray from what is clinically acceptable.
Missouri has so strayed.

Respondent wrongly suggests that Mr. Johnson improperly argues clinical guidelines as
governing the Eighth Amendment inquiry while simultaneously noting that in Atkins, at 317, “that
the states could look to clinical norms” to determine intellectual disability. Resp. at p. 12.
1

4

The Missouri Supreme Court’s approach to Atkins and its progeny starkly
diverged from the constitutional protections Atkins sought to ensure. 2 First, the
Missouri Supreme Court plainly misapplied the DSM-5 definition of intellectual
disability to create a fourth criterion and when confronted with the error – as noted
by the DSM-5 Steering Committee – the court doubled-down. Second, the Missouri
Supreme Court engaged in a weighing of Mr. Johnson’s deficits against his strengths
(by looking to the crime facts) which is at odds with the clinical and constitutional
approach to the identification of intellectual disability. Finally, the Missouri Supreme
Court ignored Mr. Johnson’s lifetime consistency in full-scale IQ scores within the
range of intellectual disability in favor of and instead favored an unsupported and
refuted allegation of malingering, undermined by the very testing data proffered by
the State.
Respondent alludes to Atkins, 536 U.S. at 318, as a basis to justify many of the
Missouri Supreme Court’s actions, particularly as it relates to reliance on the facts of
the crime. Mr. Johnson must correct this mis-citation. At this point in Atkins, this
Court was discussing policy reasons for its decision – not diagnostic criteria. In so
doing, this Court recognized that executing the intellectually disabled serves neither
of the recognized purposes of capital punishment: retribution and deterrence. Unless
the death penalty “measurably contributes to one or both of these goals, it is nothing
more than the purposeless and needless imposition of pain and suffering, and hence

While it could be included, Mr. Johnson does not address the on-set error because Respondent
did not defend the Missouri Supreme Court’s error.
2

5

an unconstitutional punishment.” Atkins, 536 U.S. at 318 (internal quotations
omitted).
A.

The Missouri Supreme Court misapplied the DSM-5 to
reject Mr. Johnson’s evidence of intellectual disability.

Respondent suggests the Missouri Supreme Court could have committed no
error because the DSM-5 was confusing, and just changed. This does not hold water.
Imposing an additional diagnostic criterion makes Missouri an outlier because
clinical requirements reject the imposition of a fourth criterion based on such a causal
connection. “Intellectual functioning and adaptive behavior are distinct and separate
constructs, which are only moderately correlated. Equal weight and joint
consideration are given to intellectual functioning and adaptive behavior diagnosis of
ID.” AAIDD, 12th Edition, p. 33. The AAIDD describes requiring a causal connection
as a “thinking error,” noting:
This initial positioning has led to two additional thinking errors. The first
is that limitations in intellectual functioning cause the limitation in
adaptive behavior. This error in thinking is refuted by three facts: (1) the
relation between intellectual functioning and adaptive behavior has
always been expressed historically and consistently as correlational, not
causative; (2) there is only a low to moderate statistical correlation
between intelligence and adaptive behavior scores; and (3) there is no
empirical evidence to support inserting a causal interpretation between
the two.
Id. at 34 (citations omitted from original). There has been no change – the diagnostic
criteria remained the same until the Missouri Supreme Court’s radical departure.
There is no longer a question about whether the Missouri Supreme Court
misapplied the intellectual disability definition from the DSM-5 because the
American Psychological Association, the publisher of the DSM-5, have removed the
6

language specifically relied on by the court. App. D. The Missouri Supreme Court was
made aware of its mistake with the filing of Mr. Johnson’s rehearing petition and
again in the reply in support, yet the court held firm and denied rehearing even
though their opinion is fundamentally flawed.
Respondent misleads by asserting the Missouri Supreme Court expressly
disavowed the DSM-5 language implying a causal connection. Resp. at p. 9, n.2. The
court’s footnote instead specifically required Mr. Johnson to “provide enough evidence
to prove the alleged deficits are related to his alleged deficits in intellectual
functioning.” App. A. n. 9 (citing DSM-5 at p. 38). Rather than “disavow” the causal
relationship, the Missouri Supreme Court required Mr. Johnson to establish some
relation to the deficits in adaptive functions.
Respondent’s mischaracterization of the Missouri Supreme Court’s opinion is
borne out by the repeated application of a causal requirement. The court interpreted
the DSM-5 in a way that required Mr. Johnson to prove causation between his
intellectual disability and his adaptive deficits: “[i]n essence, adaptive deficits must
be caused by intellectual functioning.” App. A, p. 13; see also id. at 14 (“…suffer from
a lack of causal connection to his alleged impaired intellectual functioning.”); id. at
16 (“this Court finds Johnson failed to prove a causal connection between his poor
academic performance and his alleged intellectual impairment.”); id. at 17 (“Johnson
again does not demonstrate a causal connection between these facts and his alleged
intellectual impairment.”); id. at 18-19 (“Criminal behavior, absent a causal

7

connection to intellectual impairment, however, does not support intellectual
disability.”)
The Missouri Supreme Court’s reliance on the language in the DSM-5 to
require a causal relationship provides substantial justification for this Court to grant
certiorari, reverse the Missouri Supreme Court opinion, and remand the matter for
further consideration to apply the DSM-5’s three-criteria definition of intellectual
disability.
This Court has consistently looked to the medical community to inform the
judiciary on the definition of intellectual disability under the Eighth Amendment. In

Hall v. Florida, 572 U.S. 701 (2014), this Court was presented with the question of
“how intellectual disability must be defined in order to implement these principles
and the holding of Atkins.” Id. Hall further noted that it is unsurprising that “this
Court, state courts, and state legislatures consult and are informed by the work of
medical experts in determining intellectual disability.” Id. This approach has been
reinforced in this Court’s opinions in Brumfield v. Cain, 576 U.S. 305 (2015), Moore

I, and Moore II. This Court cautioned that a state that supersedes its own definitions
of intellectual disability that are outside the bounds of the medical field violate the
Eighth Amendment. See Moore I, 137 S.Ct. at 1053. The Missouri Supreme Court’s
opinion, like that of the Texas state court, superseded its own definition of intellectual
disability and ignored the latest clinical definition of intellectual disability.

8

B.

The Missouri Supreme Court ignored this Court’s decisions
in Moore I and Moore II.

Respondent seems to willfully mischaracterize Mr. Johnson’s arguments about
the Missouri Supreme Court’s over-reliance on the facts of the crime. Resp. at pp. 1314. Respondent argues the Missouri Supreme Court may consider the facts of the
crime when evaluating the evidence of intellectual disability. Id. Mr. Johnson agrees,
but the issue is not consideration of the facts of the crime, but the Missouri Supreme
Court’s decision to weigh the evidence of Mr. Johnson’s perceived strengths against
his weaknesses. The Missouri Supreme Court engages in this very exercise even
though this Court repeatedly emphasized in Moore I and Moore II that this approach
is contrary to the Eighth Amendment.
Just as this Court rejected the Texas “Briseno Factors,” this Court should
reject the Missouri “Johnson Factors.” In Moore I, 137 S. Ct. at 1046 n. 6 3, this Court
considered a Briseno factor which posited: “did the commission of the offense require
forethought, planning, and complex execution of purpose.” This Court condemned the

Briseno factors and described them as “an outlier” because they deviated so
substantially from the accepted clinical practices. Moore I, 137 S. Ct. at 1052.
While there were dissents in Moore I, Moore II noted the Court unanimously
rejected reliance on such factors:
Three Members of this Court dissented from the majority’s treatment of
Moore’s intellectual functioning and with aspects of its adaptivefunctioning analysis, but all agreed about the impropriety of the Briseno
factors. As THE CHIEF JUSTICE wrote in his dissenting opinion, the
Briseno factors were “an unacceptable method of enforcing the
The facts of the crime in Moore closely resemble Mr. Johnson’s crime – a botched robbery that resulted
in the fatal shooting of a store clerk. Moore I, 137 S. Ct. at 1044.

3

9

guarantee of Atkins” and the Texas Court of Criminal Appeals
“therefore erred in using them to analyze adaptive deficits.” Moore, 581
U. S., at ___, 137 S. Ct. 1039, 197 L. Ed. 2d 416, at 431-432 (opinion of
ROBERTS, C. J.).
139 S. Ct. at 669-70. Moore II again reversed the state court for its continued reliance
on the facts of the crime Briseno factor. Id. at 671. This Court noted “[e]mphasizing
the Briseno factors over clinical factors, we said, “‘creat[es] an unacceptable risk that
persons with intellectual disability will be executed.’” Id. at 669 (citation omitted).
This Court previously unanimously rejected reliance on such in Moore I and Moore

II, and thus, Mr. Johnson has shown a likelihood of success. As noted in Moore II,
this Court should intercede otherwise a “person[] with intellectual disability will be
executed.”
In this case, the Missouri Supreme Court repeatedly considered the crime facts
as a counterweight to the evidence of adaptive deficits. See, e.g., Slip Op. p. 12 (noting
the facts of the crime “illustrate Johnson’s ability to plan, strategize, and problem
solve – contrary to a finding of substantial subaverage intelligence.”). The court found
adaptive strengths rather than what the clinical approach required; crediting Mr.
Johnson’s adaptive deficits. The Missouri Supreme Court weighed the lifetime of
evidence of subaverage intellectual functioning as evidenced by 8 full-scale IQ tests
in the range of intellectual disability, childhood grades, standardized tests, and
testimony from teachers confirming the accuracy of the testing completed during the
developmental period against the facts of the crime in a manner at odds with the
clinical and legal precedent. The court therefore engaged in a process that results in

10

“an unacceptable method of enforcing the guarantee of Atkins” Moore, 137 S.Ct., at
1053 (opinion of Roberts, C.J.).
C.

The Missouri Supreme Court errors related to IQ scores.

Respondent fails to address the merits of Mr. Johnson’s argument as it relates
to the Missouri Supreme Court’s treatment of the IQ scores asserting, they are not
worthy of this Court’s consideration. Resp. at p. 14. Respondent misses the import of
Mr. Johnson’s claim, and the impact the failure to accurately report and consider
scores by the Missouri Supreme Court opinion has on the evaluation of intellectual
disability in Missouri.
Mr. Johnson has taken nine full-scale IQ tests over the course of his life and
has shown remarkable consistency in his overall scores. Eight of the nine IQ scores
fall within the range of intellectual disability and support the testifying expert
opinions that Mr. Johnson is intellectually disabled. The Missouri Supreme Court,
though, mischaracterizes many of the testing scores indicating they were not in the
range for intellectual disability. This is both a factual mistake and a departure from
the clinical norms for interpreting and contextualizing IQ scores.
Mr. Johnson’s lifetime scores provide convergent validity to the clinical
diagnosis and undermine any assertion Mr. Johnson’s faked his scores to avoid the
death penalty. “[A] defendant cannot readily feign the symptoms of mental
retardation.” Newman v. Harrington, 726 F.3d 921, 929 (7th Cir. 2013); Smith v.

Sharp, 935 F.3d 1064, 1081 (10th Cir. 2019). Mr. Johnson’s consistent IQ scores over
the years belie an assertion of malingering and it is significant that he obtained the
11

exact same IQ score on his testing with the defense expert, who did give Mr. Johnson
an objective test of effort: “it is extremely unlikely that a person with Mr. Johnson’s
history of adaptive deficits could ‘fake’ on two IQ tests a year apart and be able to
obtain the exact same score.” (App. E, p. 30). Instead, Mr. Johnson’s history of IQ
scores, over a 51-year time span, indicate overwhelming proof that he fits the first
prong of the diagnosis. See id. at 30 (noting that the consistency of scores indicates a
case of convergent validity on IQ).
III.

MISSOURI’S FLAWED INTELLECTUAL DISABILITY JURY INSTRUCTIONS. 4
Respondent neither disputes the merit of the claim nor the fact that the

Missouri Supreme Court addressed the merits. Thus, Respondent’s allegation of
procedural default is unwarranted.
Regardless, the nature of the claim, and the Missouri’s determination that
Atkins is an eligibility requirement under Missouri law is critical. Because there was
not a unanimous determination as required by Atkins, Ring, and McCoy, as argued
in Dynes v. Hoover, 61 U.S. 65, 67 (1857), “[t]he subject-matter of the sentence, the
punishment inflicted, was not within their jurisdiction, and is a punishment which
they had no sort of permission or authority of law to inflict. (See Hickman, p. 149,
152, and 1 McArthur, 158.)”
A rule is jurisdictional ‘[i]f the Legislature clearly states that a threshold
limitation on a statute's scope shall count as jurisdictional.’ Arbaugh v. Y & H Corp.,
546 U.S. 500 (2006).” Gonzalez v. Thaler, 565 U.S. 134, 141–42 (2012). Missouri’s
An Amicus has been submitted in support of the stay application in Johnson v. Blair, Case
No. 21A-51.
4

12

Legislature made that determination. Without a unanimous verdict, this Court may
act. “But we repeat, if a court martial has no jurisdiction over the subject-matter of
the charge it has been convened to try, or shall inflict a punishment forbidden by the
law, though its sentence shall be approved by the officers having a revisory power of
it, civil courts may, on an action by a party aggrieved by it, inquire into the want of
the court’s jurisdiction, and give him redress.” Dynes, 61 U.S. at 82–83.The Missouri
Supreme Court noted this was an edibility finding. Contrary to this Court’s authority,
the court then a single hold-out juror could subvert the will of the jury on an eligibility
question and render someone subject to the death penalty. This raises a
constitutional question worthy of consideration.
IV.

MR. JOHNSON TIMELY PURSUED HIS REMEDIES IN COURT.
Respondent wrongly argues this Court should deny relief and a stay of

execution because he unreasonably delayed in seeking relief from the courts. Resp. at
pp. 17-19. In fact, Mr. Johnson timely pursued his remedies in the courts, Respondent
argued the same thing below and the Missouri Supreme Court rejected the
allegations and addressed the merits.
Mr. Johnson filed his original state habeas action in the Missouri Supreme
Court prior to the setting of his execution date. After the setting of a date, the
Missouri Supreme Court rejected Respondent’s timeliness arguments and considered
the merits of Mr. Johnson’s petition, issuing an opinion until August 31, 2021. Mr.
Johnson then timely filed a rehearing petition and complied with the court’s
deadlines for submitting a reply in support. The Missouri Supreme Court delayed a

13

decision on the rehearing petition until October 1, just 4 days prior to the scheduled
execution date.
Mr. Johnson complied with all time and scheduling requirements as dictated
by the Missouri Supreme Court and applicable rules. In fact, Mr. Johnson sought to
have this matter resolved prior to setting an execution date, but the Missouri
Supreme Court – supported by Respondent – set a date prior to the resolution of the
instant case. This Court should defer to the Missouri Supreme Court’s rejection of
those same arguments when they were presented to that court.
There is no tangible harm to the State. A simple delay to accurately determine
whether Mr. Johnson’s intellectually disability was constitutionally considered by the
Missouri Supreme Court, in accordance with this Court’s precedent, prevents the
State from committing an illegality. The State cannot claim harm for having to follow
the law. This Court has said states simply cannot execute the intellectually disabled.
CONCLUSION
Because the Missouri Supreme Court contravened this Court’s Atkins line of
cases certiorari should be granted, and the lower court’s opinion should be vacated,
and the case remanded for further proceedings consistent with Moore I and Moore II.
Certiorari should also be granted because the jury instructions permitted a single
juror to deprive Mr. Johnson of his Atkins protections.
Because Mr. Johnson meets the Hill v. McDonough, 547 US. 573 (2006)
standard, this Court should grant a stay of execution. Alternatively, this Court
should enter a stay of execution to permit due consideration of Mr. Johnson’s Petition

14

